         OFFICE OF INSPECTOR GENERAL 




                                  Catalyst for Improving the Environment


Audit Report




       EPA Could Improve Its
       Information Security by
       Strengthening Verification and
       Validation Processes
       Report No. 2006-P-00002

       October 17, 2005
Report Contributors: 	    Rudolph M. Brevard
                          Charles Dade
                          Cheryl Reid
                          Jefferson Gilkeson
                          Scott Sammons




Abbreviations

ASSERT       Automated Security Self-Evaluation and Remediation Tracking
EPA          Environmental Protection Agency
C&A          Certification and Accreditation
FISMA        Federal Information Security Management Act
NIST         National Institute for Standards and Technology
OIG          Office of Inspector General
OMB          Office of Management and Budget
POA&Ms       Plans of Action and Milestones
                        U.S. Environmental Protection Agency                                             2006-P-00002

                        Office of Inspector General                                                    October 17, 2005





                        At a Glance 

                                                                         Catalyst for Improving the Environment

Why We Did This Review
                                    EPA Could Improve Its Information Security
The Federal Information             by Strengthening Verification and Validation
Security Management Act
(FISMA) requires the Office of      Processes
Inspector General to perform
an independent evaluation of         What We Found
the Environmental Protection
Agency’s (EPA) information          Program offices had not effectively implemented processes to comply with
security program and practices.     Federal and EPA requirements related to information security. We found major
                                    applications without: (1) adequate certification and accreditation, (2) contingency
Background                          plans or testing of the plans, and (3) a process to monitor for known security
                                    vulnerabilities. As such, all security control deficiencies are not reported in
We selected a sample of the         EPA’s Plans of Action and Milestones system. EPA could have discovered these
EPA’s major applications and        security deficiencies had it implemented processes to verify and validate offices’
evaluated:                          compliance with established Federal and Agency requirements. Therefore, the
                                    Chief Information Officer is not receiving timely and accurate information with
• certification and accreditation   which to plan, implement, evaluate, and report its Information Technology
  practices;                        security status and security remediation activities to Office of Management and
• system contingency plans;         Budget.
  and
• program offices’ processes to      What We Recommend
  test and evaluate security
  controls, including               We made four recommendations to the Director of EPA’s Office of Technology
  conducting vulnerability tests    Operations and Planning. These involved: (1) developing and implementing an
  for known security threats.       ongoing oversight process to review major applications and related general
                                    support systems for compliance with Federal and Agency requirements;
                                    (2) developing and implementing processes to evaluate the effectiveness of
                                    Independent Verification and Validation reviews; (3) developing a strategy for
For further information, contact
our Office of Congressional and     reporting Independent Verification and Validation results to inform Assistant and
Public Liaison at (202) 566-2391.   Regional Administrators on the status of their security programs; and (4) ensuring
                                    program offices establish Plans of Action and Milestones for all program office-
To view the full report,            specific deficiencies identified in subsequent reports related to this review.
click on the following link:

www.epa.gov/oig/reports/2006/       The Agency found the report to be an accurate reflection of the Agency security
20051017-2006-P-00002.pdf           program and concurred with the findings and recommendations.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460



                                                                                       OFFICE OF 

                                                                                  INSPECTOR GENERAL




                                        October 17, 2005

MEMORANDUM

SUBJECT:              EPA Could Improve Its Information Security by Strengthening
                      Verification and Validation Processes
                      Report No. 2006-P-00002

FROM:                 Rudolph M. Brevard /s/
                      Acting Director, Business Systems Audits

TO:                   Kimberly T. Nelson
                      Assistant Administrator for Environmental Information
                        and Chief Information Officer

This is our final report on the information security controls audit conducted by the Office of
Inspector General (OIG) of the U.S. Environmental Protection Agency (EPA). This audit report
contains findings that describe problems the OIG has identified and corrective actions the OIG
recommends. This audit report represents the opinion of the OIG, and the findings in this audit
report do not necessarily represent the final EPA position. EPA managers, in accordance with
established EPA audit resolution procedures, will make final determinations on matters in this
audit report.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days of the date of this report. You should include a corrective action
plan for agreed upon actions, including milestone dates. We have no objection to further release
of this report to the public. For your convenience, this report will be available at
http://www.epa.gov/oig.

If you or your staff has any questions regarding this report, please contact me at (202) 566-0893,
or Charles Dade, Assignment Manager, at (202) 566-2575.


cc: Mark Day, Director, Office of Technology Operations and Planning
                                  Table of Contents 

At a Glance


Chapters
   1    Introduction ...........................................................................................................    1


                Purpose .........................................................................................................   1              

                Background ....................................................................................................     2              

                Scope and Methodology.................................................................................              2              


  2 	 EPA Could Improve Security Controls Reporting and Compliance by

      Strengthening Verification and Validation Processes..........................................                                 4      


                Plans of Action and Milestones Did Not Reflect Applications’
                   Security Status.. ........................................................................................       4

                Application Certification and Accreditation Did Not Meet Guidelines .............                                   5

                Contingency Planning Practices Had Deficiencies.........................................                            6

                Testing and Evaluation of Security Controls Needs Improvement……………                                                  7

                EPA Has Not Implemented Adequate Verification and Validation 

                   Processes for Systems’ Security Controls.................................................                        8

                EPA is Taking Steps to Improve Security Compliance Processes .................                                      8

                Recommendations…………………………………………………………………                                                                            9          

                Agency Comments and OIG Evaluation ………….………………………………                                                                9





Appendices
   A    Detailed Scope and Methodology........................................................................                      10         


   B    Federal and Agency Criteria.................................................................................                13 


   C    Agency Response to Draft Report……………………………………………………                                                                         15 


   D    Distribution ……………………………....................................................................                                17

                                         Chapter 1
                                          Introduction

Purpose

                We audited the Environmental Protection Agency’s (EPA) information security
                program and practices. We selected five major applications from EPA’s fiscal
                2005 business cases submitted to the Office of Management and Budget (OMB).
                See Appendix A for a listing of the major applications. We evaluated whether the
                program office for each selected application:

                       •   complied with Federal and Agency requirements on certification and
                           accreditation (C&A) practices;

                       •   complied with Federal and Agency requirements on contingency plans;
                           and

                       •   implemented processes to test and evaluate security controls, which
                           included conducting vulnerability tests for known security threats.

                In addition, we evaluated the following additional security control areas.
                We have reported the results from the first two areas in our fiscal 2005 Federal
                Information Security Management Act (FISMA) report template submitted to
                OMB:1

                       •   hardware and Operating Systems configuration,

                       •   security training adequacy for Information Security Officials and System
                           Administrators, and

                       •   program office expenditures of security control funds.

                We will also provide results to each program office in separate reports. This
                report provides the Office of Environmental Information with our findings on
                information security controls, including deficiencies that require EPA Plans of
                Action and Milestones (POA&Ms).




1
 Report No. 2006-S-00001, Fiscal Year 2005 Federal Information Security Management Act Report, October 3,
2005


                                                     1
Background

         Enacted into law on December 17, 2002, as Title III of the E-Government Act of
         2002, FISMA defines specific information security requirements Federal agencies
         must satisfy and assigns responsibilities to agency heads, senior agency officials,
         and agency inspectors general for satisfying FISMA requirements. FISMA
         requires that agencies develop policies and procedures commensurate with the
         risk and magnitude of harm resulting from the malicious or unintentional
         impairment of agency information assets.

         EPA’s Chief Information Officer is responsible for developing and overseeing
         Agency-wide, risk-based, and cost-effective policies and procedures for
         addressing information security. Senior Agency officials within EPA’s program
         and regional offices are responsible for enforcing security policies and procedures
         by assessing potential risks and implementing operational and technical controls
         that cost-effectively mitigate identified risks to Agency information assets.
         Senior Agency officials are also responsible for implementing controls and
         periodically testing and evaluating information security controls to ensure
         continued compliance with Agency standards.

         When a security control weakness is identified, Agency officials create POA&Ms,
         which document the planned remediation process. EPA uses a central database,
         the Automated Security Self-Evaluation and Remediation Tracking (ASSERT)
         tool, to centrally track remediation of weaknesses associated with Information
         Technology systems. ASSERT serves as the Agency’s official record for
         POA&Ms activity. The Agency reports POA&Ms activity to OMB quarterly.

Scope and Methodology
         We conducted our field work from March 2005 to July 2005 at EPA Headquarters
         in Washington, DC; the National Computer Center, Research Triangle Park,
         North Carolina; and EPA’s Region 3 in Philadelphia, Pennsylvania. We
         interviewed Agency officials at all locations and contract employees at the
         National Computer Center. We reviewed application security documentation to
         determine whether it complied with selected requirements. We reviewed system
         configuration settings and conducted vulnerability testing of servers for known
         vulnerabilities. Appendix A has detailed information on our sample selection and
         the specific scope and methodology applied for each security control area. We
         reviewed relevant Federal and Agency information security requirements,
         summarized in Appendix B. We conducted this audit in accordance with
         Government Auditing Standards, issued by the Comptroller General of the United
         States.

         We evaluated the information security practices of five Agency program offices
         by selecting a major application system within each program office. For each
         selected application, we evaluated the following security controls:


                                          2

     •	 Security C&A practices -- We evaluated whether application security
        plans, risk assessments, and authorizations for operation complied with
        Federal and Agency requirements.

     •	 Application contingency plans -- We evaluated whether application
        contingency plans complied with Federal and Agency requirements,
        specifically regarding: (1) general content headings, and (2) the
        adequacy and frequency of tests performed on each plan.

     •	 Processes used to test and evaluate security controls -- We evaluated
        three areas of security controls: (1) physical controls, (2) contractor
        personnel security screening, and (3) system vulnerability monitoring.

There were no pertinent issues that required follow up from prior audit reports.




                                 3

                                  Chapter 2
    EPA Could Improve Security Controls Reporting
     and Compliance by Strengthening Verification
              and Validation Processes

          EPA’s POA&Ms were not consistent with the security controls status of the
          applications we reviewed. We found major applications without:

              •     adequate certification and accreditation,
              •     contingency plans or testing of plans, and
              •     adequate testing and evaluation of security controls.

          EPA could have discovered these inconsistencies if it had implemented
          verification and validation processes to review program offices’ compliance with
          established Federal and Agency requirements. Without these processes, EPA
          mission-critical information systems may not be adequately protected against
          known security vulnerabilities or be available in a timely manner in the event of
          an emergency or disaster.

Plans of Action and Milestones Did Not Reflect Applications’ Security
Status
          Our review disclosed that, in several cases, program offices did not report
          POA&Ms information in EPA’s ASSERT database. As a result, the Chief
          Information Officer is not receiving timely, accurate, and complete POA&Ms
          information with which to plan, implement, evaluate, and report EPA’s
          Information Technology security status and security remediation activities to
          OMB.

          As indicated in Table 1, and discussed in detail in subsequent sections, program
          offices discovered and reported only 22 percent (4 out of 18) of the security
          weaknesses we identified in our review.

          Table 1. Application Security Deficiencies Identified Compared to Deficiencies Discovered
          and Reported in EPA’s ASSERT Database


                                        Number of Identified           Number of Deficiencies
                  Area Reviewed
                                        Security Deficiencies      Reported by POA&Ms in ASSERT

              Certification &
                                                   10                              2
            Accreditation (C&A)
              Contingency Plan                     8                               2
                      Total                        18                              4



                                              4

Application Certification and Accreditation Did Not Meet Guidelines
          Of the five applications we reviewed, none of the selected C&A packages fully
          complied with Federal or Agency requirements. Certification is a comprehensive
          assessment of a system’s managerial, operational, and technical security controls
          to determine whether the controls are implemented correctly, operating as
          intended, and producing the desired outcome. Accreditation is the official
          management decision to authorize operation of an information system and to
          explicitly accept the risk to EPA’s operations, assets, or personnel. By
          accrediting an information system, senior Agency officials accept responsibility
          for the security of the system and are fully accountable for any adverse impacts to
          the Agency if a breach of security occurs. The C&A package includes documents
          used by the authorizing official to approve an information system for operation.

          Our review focused on whether each major application’s: 1) security plan was
          current, had been approved or re-approved within the last 3 years or after a major
          system change, and contained accurate system status and application environment
          information; and 2) C&A package contained a current independent review of
          controls or a full, formal risk assessment. In addition, we evaluated whether
          management explicitly authorized/re-authorized the application within the last
          3 years or re-authorized the application for operation after a significant change in
          processing before placing the system back into operation. We found 10 C&A
          deficiencies in the following areas:

             •   Four C&A packages with security plan deficiencies:

                 ¾ one application operating with an expired security plan,
                 ¾ one application operating with a security plan that was not updated
                   when the system underwent major changes, and
                 ¾ two applications operating with security plans that did not reflect
                   current application status.

             •	 Three C&A packages with independent review or risk assessment
                deficiencies:

                 ¾ one application operating under an expired risk assessment,
                 ¾ one application operating without ever having undergone a risk
                   assessment, and
                 ¾ one application not re-assessing risks following a significant change in
                   processing.

             •   Three C&A packages with authorization to operate deficiencies:

                 ¾ one application operating without written authorization,
                 ¾ one application operating with an expired authorization, and
                 ¾ one application that was not re-authorized after a major modification
                   prior to placement back into production.


                                           5

          Based on our findings, senior Agency officials did not have a reasonable basis for
          accrediting the applications. EPA places itself at greater risk because it could not
          be sure that adequate steps have been taken to eliminate or mitigate risks.

Contingency Planning Practices Had Deficiencies
          Four of the five applications we reviewed had contingency plan deficiencies.
          Our review focused on whether the application owners had: 1) developed a
          contingency plan and included contingency plan general content headings
          consistent with National Institute for Standards and Technology (NIST)
          guidelines, and 2) adequately tested the plan and documented the test results.
          We found eight contingency plan deficiencies in the following areas:

             •   Four contingency plan development-related deficiencies:

                 ¾ two applications operating without a contingency plan, and
                 ¾ two applications with contingency plans that were not updated to
                   reflect major changes made to the system.

             •   Four contingency plan testing-related deficiencies:

                 ¾	 four applications had not tested their plans due to the lack of a
                    contingency plan, or the contingency plan was not updated when the
                    application underwent major changes.

          Program offices had not reported 75 percent (six of eight) of the contingency plan
          deficiencies identified in our review.

          In addition, we reviewed the contingency planning efforts for one application that
          was widely distributed throughout the EPA’s Headquarters, regions, and finance
          centers. Our review determined that the application’s program office had
          established POA&Ms to manage two security deficiencies. However, over
          several years, the program office took no action to correct these deficiencies.

          An adequately documented and tested contingency plan would enable EPA to
          recover quickly and effectively following a service disruption or disaster. Lack of
          a tested contingency plan may cause mission critical systems to not be available
          in a timely manner in the event of, or just after, an emergency or disaster.




                                            6

Testing and Evaluation of Security Controls Needs Improvement
          While the physical controls for server rooms and contractor background screening
          procedures were adequate, the process to monitor servers for high-risk
          vulnerabilities needs improvement.

          Physical Controls of Server Rooms and Contractor Background
          Screening Processes Were Effective

          Program offices effectively implemented physical controls for the server rooms
          we evaluated. In particular, we examined fire, temperature, and physical access
          controls for each server room we evaluated. We did not assess these controls at
          the Research Triangle Park campus since these areas are currently under review in
          another audit. Although we found contractor background security screening
          processes effective, we identified where EPA could improve its procedures. We
          will issue a separate memorandum outlining our concerns.

          Process for Monitoring Servers for Known Vulnerabilities Could Be
          Improved

          Although we found many of the program offices had implemented processes to
          monitor system activity by activating system-logging features and assessing
          system configuration settings, EPA could improve its processes for monitoring
          servers to detect and correct known vulnerabilities. Our vulnerability tests
          discovered 130 high-risk vulnerabilities on the servers scanned with our
          vulnerability scanner. We provided our test results to the appropriate program
          offices and EPA took immediate actions to remediate the risks.

          EPA has not implemented monitoring for 21 percent (6 of 29) of the reviewed
          servers. Table 2 compares the number of vulnerabilities discovered on monitored
          versus unmonitored servers, as well as the average number of vulnerabilities per
          server. As noted, unmonitored servers had, on average, 72 percent more
          vulnerabilities than monitored servers.

          Table 2. Vulnerabilities Discovered for Monitored Versus Unmonitored Servers


                              Number of      Number of Discovered        Average Number of
                               Servers          Vulnerabilities        Vulnerabilities per Server


              Monitored           23                  90                          3.9


             Unmonitored           6                  40                          6.7


                 Total            29                  130                          -




                                             7

          Routine tests of systems to verify that the security settings are configured
          correctly, according to established policies, is widely recognized as a preventive
          step that could reduce security incidences from occurring. Without processes to
          monitor servers, EPA mission-critical information systems may not be adequately
          protected against known security vulnerabilities. Exploiting these vulnerabilities
          could have a serious or severe adverse effect on EPA operations, assets, or
          individuals.

EPA Has Not Implemented Adequate Verification and Validation
Processes for Systems’ Security Controls
          EPA had not established an ongoing process to review major applications for
          compliance with Federal and Agency requirements. In December 2002, EPA
          outlined a thorough process to conduct Independent Verification and Validation
          of annual system security self-assessments and POA&Ms. However, EPA had
          not taken steps to conduct activities or commit resources to ensure completion of
          many of the actions outlined in the “Security Oversight Processes” manual.

          Information systems also go through limited security compliance reviews during
          EPA’s Capital Planning and Investment Control process, but these reviews have
          not successfully identified security control weaknesses. EPA designed its Capital
          Planning and Investment Control process to analyze, track, and evaluate the risks
          and results of all major capital investments for information systems. However,
          the review process was not effective in identifying security weaknesses and
          ensuring program offices created POA&Ms to report and manage the mitigation
          of significant security weaknesses.

EPA is Taking Steps to Improve Security Compliance Processes
          In subsequent talks, Agency officials indicated that EPA has taken steps to
          improve its screening of security information contained in business cases. For the
          fiscal 2007 CPIC process, EPA reassigned this function from contractor support
          to Technical Information Security Staff. However, the process may be
          insufficient because Agency officials indicated the process does not require
          Technical Information Security Staff to:

             •	 review the supporting documentation for the business case’s security
                information,
             •	 conduct tests to independently verify and validate the business case’s
                security status, or
             •	 verify and validate security requirements for systems that are not required
                to submit a business case – EPA’s CPIC Lite submissions.

          EPA is also taking further steps to enhance its Independent Verification and
          Validation practices. Agency officials indicated that Technical Information
          Security Staff committed resources to increase Independent Verification and


                                           8

         Validation activities. EPA provided our office with notification memorandums
         outlining planned security reviews to begin in July 2005. EPA’s memorandums
         indicate Technical Information Security Staff will verify and validate a sample of
         systems’ security plans, POA&Ms, and subsections of the systems’ self-
         assessments.

Recommendations
         We recommend that the Director, Office of Technology Operations and Planning:

         1. 	 Develop and implement an ongoing oversight process to verify and validate
              security controls of major applications and related general support systems for
              compliance with Federal and Agency standards, and ensure program offices
              create POA&Ms for all identified weaknesses. The ongoing oversight process
              should contain:

            a.	 criteria and processes to monitor and ensure program offices
                independently assess or reassess new or changed systems prior to
                authorization/reauthorization to operate - either through the CPIC process
                or Independent Verification and Validation,

            b.	 requirements to review a sample of completed POA&Ms, and

            c.	 requirements to verify that corrective actions effectively corrected
                identified deficiencies.

         2. 	 Develop and implement processes to evaluate the effectiveness of
              Independent Verification and Validation reviews.

         3. 	 Develop a strategy for reporting Independent Verification and Validation
              results to inform Assistant and Regional Administrators on the status of their
              security programs.

         4.	 Ensure program offices establish POA&Ms for all program office-specific
             deficiencies identified in subsequent reports related to this review.

Agency Comments and OIG Evaluation
         In general, the Agency found the draft report was an accurate reflection of its
         security program and concurred with the findings and recommendations, with the
         exception of the section discussing the Contractor Background Screening
         Processes. Office of Environmental Information provided the OIG additional
         information regarding their processes, and we modified the report.




                                           9

                                                                                       Appendix A

                   Detailed Scope and Methodology


Application Selection
We initially selected the following six major applications from among EPA’s 25 fiscal 2005
business cases submitted to OMB:

                         System Name                                 Program Office
     Clean Air Markets Division Business Systems (CAMDBS)    Office of Air and Radiation
     Integrated Compliance Information System (ICIS)         Office of Enforcement and
                                                             Compliance Assurance
     Comprehensive Environmental Response,                   Office of Solid Waste and
     Compensation, and Liability Information System          Emergency Response
     (CERCLIS)
     Safe Drinking Water Information System (SDWIS)          Office of Water
     Integrated Contract Management System (ICMS)            Office of Administration and
                                                             Resources Management
     National Geospatial Program (GEO/GIS)                   Office of Environmental
                                                             Information



We chose applications that were in an operational status, represented different Agency program
offices, and had the highest budgeted fiscal 2005 costs for application operation and maintenance
for each office selected. We eliminated the National Geospatial Program application from our
sample because we discovered (after detailed review of the business case and interview with
program officials) that this business case was not an actual information system and proceeded to
review the remaining five applications against the specified criteria.

We excluded financial applications owned by the Office of the Chief Financial Officer from our
sample because this office’s applications are currently undergoing review in the financial
statement audit, and the OIG will report deficiencies in these applications separately.




                                                10

Certification and Accreditation
To evaluate application security C&A practices, we reviewed three areas:

       •	 Application Security Plans -- For this area we evaluated whether the security plan
          met the following three criteria:

           o	 was approved or reapproved within 3 years or after a major application change,
           o	 accurately reflected the current status of the application, and
           o	 accurately described the current application environment.

       •	 Independent Reviews, Audits of Application Security Controls, Application Risk
          Assessments -- For this area we evaluated whether EPA had evidence of completing
          either:

           o	 a current independent review or audit of security controls, within the previous
              3 years or after a major application change, as set forth by Appendix III of OMB
              Circular A-130 under security controls for major applications; or
           o	 a full and formal risk assessment at least every 3 years or after a major
              application change, as specified by the EPA Agency Network Security Manual
              2195.1A4.

           Although the C&A process requires both 1) an independent review or audit of
           security controls and 2) a full and formal risk assessment at least every 3 years, for
           purposes of our review, we only verified whether the program offices had one or the
           other.

       •	 Written Authorizations for Application Operation -- For this area we evaluated
          whether EPA had:

           o	 written authorization for each application prior to placing the application into
              operation and/or re-authorization for processing at least every 3 years as required
              by Appendix III of OMB Circular A-130, or
           o	 written re-authorization for each application prior to placing the application back
              into operation after "a significant change in processing" as required by Appendix
              III of OMB Circular A-130.

We interviewed application managers and system security officials to gain an understanding of
the current system operating environment and to assess the significance of ongoing changes to
the system environment. We evaluated whether security plans, risk assessments, and
authorizations were current and whether the actual system operating environment matched the
environment described in the application security plan.




                                                11

Contingency Plans
We evaluated contingency plans, security plans with contingency planning sections, and other
documents that are commonly prepared for contingency planning to determine if they complied
with the criteria. We specifically reviewed the plans for the broad, overarching subheadings that
NIST criteria deems as being part of a complete contingency plan (e.g., Purpose, Applicability,
Scope, References/Requirements, Record of Change, System Description, Line of Succession,
and Responsibilities). To determine whether program offices tested contingency plans, we
requested and reviewed documentation of tests performed within the past year.



Testing of Security Controls
We reviewed physical security measures and processes to monitor servers for known
vulnerabilities. To review physical security measures, we examined fire, temperature, and
physical access controls to determine if these controls existed for each server room we evaluated.
We confirmed the presence of fire suppression systems and alarms. To evaluate server
monitoring, we examined documents related to system monitoring and scanning, such as reports
from scanning tools and screen prints of system logs; monitoring and configuration applications;
and patch management tools associated with each server evaluated. To evaluate contractor
background screenings, we obtained documents showing the current status of background
screenings for the contractor personnel included within our review.

We used the Internet Security Scanner and NESSUS vulnerability assessment tools to identify
computers and open ports susceptible to attack and provide information on the associated
vulnerabilities and risk mitigation strategies. The Internet Security Scanner is a network-based
vulnerability-scanning tool that identifies security holes on network hosts. NESSUS is a
freeware network-based vulnerability-scanning tool that identifies security holes on network
hosts. We conducted testing at EPA’s Headquarters, Region 3, and Research Triangle Park. We
interviewed responsible system owners and provided results to Agency officials for comments.

Table 2 of our report contains only the High Risk vulnerabilities identified by the scanning tools.
For password vulnerabilities, we counted one vulnerability per server, although there may have
been more than one instance of the same vulnerability. We did not count expired passwords that
were under 90 days old as vulnerabilities. We did not report vulnerabilities identified as Medium
or Low Risks or test results described as Informational. However, we shared the complete
vulnerability test results to the system owners and administrators.




                                                12

                                                                                     Appendix B

                        Federal and Agency Criteria
OMB Circular A-130, Appendix III, Security of Federal Automated Information Resources
requires a management official to accredit (authorize to operate), in writing, the use of an
automated system by confirming that its security plan, as implemented, adequately secures the
application. The management official must factor in the results of the most recent review or
audit of security controls when accrediting the system. The management official must accredit
the application prior to its placement into operation and re-accredit the application at least every
3 years, or after major system changes. Major applications must undergo an independent review
or audit of the security controls at least every 3 years. The Circular establishes the requirement
for all major applications to have security plans.

Federal Information Processing Standards Publication 102, Guideline for Computer
Security Certification and Accreditation, September 1983, and NIST Special Publication
800-37, Guide for the Security Certification and Accreditation of Federal Information
Systems, May 2004. These documents provide guidelines for establishing formal processes for
certifying and accrediting computer applications as required by OMB Circular A-130, Appendix
III. A security certification consists of an evaluation of an application – including an assessment
of the managerial, operational, and technical controls – to see how well these controls meet
security requirements. A security accreditation is the official management decision given by a
senior Agency official to authorize operation of an information system and to explicitly accept
the risk to Agency operations, assets, or personnel based on the implementation of an agreed-
upon set of security controls. NIST 800-37 also requires continuous monitoring of system
security controls and reporting security status to appropriate Agency officials.

NIST Special Publication 800-34, Contingency Planning Guide for Information Technology
Systems, June 2002, maps out guidelines for a complete Information Technology contingency
plan as well as testing of the plan. The guidelines specify that contingency plans contain the
following sections: Purpose, Applicability, Scope, References/Requirements, Record of Change,
System Description, Line of Succession, and Responsibilities. Appendix C states that testing of
the contingency plan should occur at least annually and upon significant changes to the
Information Technology system, supported business processes, or the Information Technology
contingency plan.

EPA Directive 2195A1, EPA Information Security Manual, December 1999, requires each
primary organization head to ensure that all general support systems and major applications have
security plans in place and update the plan at least every 3 years or when significant change
occurs. Appendix A establishes the requirement to develop and test contingency plans.

EPA Order 2195.1 A4, Agency Network Security Policy, March 2001, requires that EPA data
communications network resources be documented, monitored, tested, evaluated, and verified to
ensure adequate security in accordance with information sensitivity and other Federal and
Agency requirements. A program of continuous monitoring, detecting, and auditing with
corresponding tracking capabilities and reporting is required for all EPA data communications


                                                13

network entry and exit points. This program must contain procedures for adequate and timely
response to intruders and other unauthorized activities. The Order requires major application
managers to conduct and update risk assessments at least every 3 years or whenever a
substantive configuration change occurs.

EPA Risk Assessment Procedures, February 2004, require system owners to perform a full
formal risk assessment on all major applications included in OMB Exhibit 300 submissions
before a system is placed in operation and at least every 3 years thereafter.




                                               14

                                                                                   Appendix C

                  Agency Response to Draft Report


                             UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                          WASHINGTON, D.C., 20460




                                                                                           OFFICE OF
                                                                                    ENVIRONMENTAL INFORMATION



                                           September 29, 2005


MEMORANDUM

SUBJECT:       Technical Information Security Staff Comments on the Draft Report: EPA Could
               Improve Its Information Security by Strengthening Verification and Validation
               Processes,
               Assignment No: 2005-000661

FROM:          Kimberly T. Nelson /s/
               Assistant Administrator and Chief Information Officer

TO: 	          Nikki L. Tinsley
               Inspector General

       We appreciate the opportunity to review and provide comments on the Draft Report,
“EPA Could Improve its Information Security by Strengthening Verification and Validation
Processes.” Our comments address the factual accuracy of the draft report and include our
concurrence or non-concurrence with the findings and recommendations.

       In general, we found the report was an accurate reflection of the Agency security
program especially in light of our follow-on discussions with your office and the information
technology system owners for the systems reviewed. We concur with the findings and
recommendations.

      If you or your staff have any questions regarding this report, please contact me at
202-566-0304 or Marian Cody at 202-566-0302.




                                               15

cc:   Rudolph Brevard (2421T)
      Mark Day (2831T)
      Myra Galbreath (2831T)
      Karen Maher (2831T)
      George Bonina (2831T)
      Marian Cody (2831T)
      Barbara Chancey (2831T)
      John Gibson (N276-01)
      Melissa Heist (2421T)
      Kim Farmer (2831T)
      Bob Trent (2812T)
      Cheryl Reid (N283-01)




                                16
                                                                                Appendix D


                                    Distribution
Office of the Administrator
Assistant Administrator for Environmental Information and Chief Information Officer
Assistant Administrator for Administration and Resources Management
Assistant Administrator for Air and Radiation
Assistant Administrator for Enforcement and Compliance Assurance
Assistant Administrator for Solid Waste and Emergency Response
Assistant Administrator for Water
Director, Office of Technology Operations and Planning
Senior Agency Information Security Officer
Director, National Technology Services Division
Associate Director, Technical Information Security Staff
Operations Security Manager, National Technology Services Division
Audit Coordinator, Office of Environmental Information
Audit Coordinator, Technical Information Security Staff
Audit Coordinator, Office of Administration and Resources Management
Audit Coordinator, Office of Air and Radiation
Audit Coordinator, Office of Enforcement and Compliance Assurance
Audit Coordinator, Office of Solid Waste and Emergency Response
Audit Coordinator, Office of Water
Agency Followup Official (the CFO)
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Inspector General




                                             17

